No. 21-113
In the

Supreme Court of the United States
__________________
UJ-EIGHTY CORPORATION,
Petitioner,
v.
CITY OF BLOOMINGTON BOARD OF ZONING APPEALS,
Respondent.
__________________
On Petition for a Writ of Certiorari
to the Indiana Supreme Court

__________________
BRIEF OF AMICI CURIAE NORTH AMERICAN
INTERFRATERNITY CONFERENCE AND
NATIONAL PANHELLENIC CONFERENCE
IN SUPPORT OF PETITIONER
__________________
ALEXANDER VOLOKH
Counsel of Record
EMORY LAW SCHOOL
1301 Clifton Rd. NE
Atlanta, GA 30322
404-712-5225
avolokh@emory.edu
Counsel for Amici Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

Basic Due Process principles prevent selfinterested parties, whether public or private,
from having coercive power over the rights of
others . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

II.

This Court has found Due Process violations
even when the conflict of interest has been
fairly indirect . . . . . . . . . . . . . . . . . . . . . . . . . . 8

III.

The Indiana Supreme Court’s supposed
distinctions are not relevant to this case . . . 13

IV.

The split in this case is real, and the situation
here recurs with some regularity . . . . . . . . . . 16

V.

The Indiana Supreme Court’s decision
severely undermines the associational
freedoms of fraternities and sororities . . . . . 18

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ii
TABLE OF AUTHORITIES
CASES
425 Pty. Ass’n of Alpha Chi Rho, Inc. v. State
Coll. Borough Zoning Hearing Bd.,
223 A.3d 300 (Pa. Commw. Ct. 2019) . . . . . . . . 17
Aetna Life Ins. Co. v. Lavoie,
475 U.S. 813 (1986). . . . . . . . . . . . . . . . . . . 6, 9, 15
Alpha Phi International Fraternity, Inc. v.
President & Fellows of Harvard College,
36 Mass. L. Rptr. 201 (Super. Ct. 2020) . . . . . . 19
Ass’n of Am. R.R.s v. DOT,
821 F.3d 19 (D.C. Cir. 2016). . . . . . . . . . . . . 17, 18
Bevan v. Krieger,
289 U.S. 459 (1933). . . . . . . . . . . . . . . . . . . . . . . . 9
Bloomington Bd. of Zoning App. v. UJ-Eighty
Corp., 163 N.E.3d 264 (Ind. 2021) . . . . . . . passim
Bostock v. Clayton County,
140 S. Ct. 1731 (2020). . . . . . . . . . . . . . . . . . . . . 19
Caperton v. A.T. Massey Coal Co.,
556 U.S. 868 (2009). . . . . . . . . . . . . . . . . . . . . . . 10
Carter v. Carter Coal Co.,
298 U.S. 238 (1936). . . . . . . . . . . . . . . . . . 5, 12, 18
Chi Iota Colony of Alpha Epsilon Pi Fraternity v.
City University of New York,
502 F.3d 136 (2d Cir. 2007) . . . . . . . . . . . . . . . . 19

iii
Christian Legal Society v. Martinez,
561 U.S. 661 (2010). . . . . . . . . . . . . . . . . 18, 19, 21
Chrysafis v. Marks,
No. 21A8 (U.S. Aug. 12, 2021) . . . . . . . . . . . . 5, 18
Concrete Pipe & Prods. of Cal., Inc. v. Construction
Laborers Pension Trust for S. Cal.,
508 U.S. 602 (1993). . . . . . . . . . . . . . . . . . . . . . 6, 7
Connally v. Georgia,
429 U.S. 245 (1977). . . . . . . . . . . . . . . . . . . . . . . . 6
Counceller v. City of Columbus Plan Commission,
42 N.E.3d 146 (Ind. Ct. App. 2015) . . . . . . . . . . 14
Dugan v. Ohio,
277 U.S. 61 (1928). . . . . . . . . . . . . . . . . . . . . . . . . 9
Eubank v. City of Richmond,
226 U.S. 137 (1912). . . . . . . . . . . . . . . . . . . . . . . . 4
Fuentes v. Shevin,
407 U.S. 67 (1972). . . . . . . . . . . . . . . . . . . . . . . . . 5
Gibson v. Berryhill,
411 U.S. 564 (1973). . . . . . . . . . . . . . . . . . . 6, 8, 15
Haw. Housing Auth. v. Midkiff,
467 U.S. 229 (1984). . . . . . . . . . . . . . . . . . . . . . . . 6
In re Murchison,
349 U.S. 133 (1955). . . . . . . . . . . . . . . 5, 10, 11, 12
Kappa Alpha Theta Fraternity, Inc. v. Harvard
University, 397 F. Supp. 3d (D. Mass. 2019) . . . 19

iv
Marshall v. Jerrico,
446 U.S. 238 (1980). . . . . . . . . . . . . . . . . . . 6, 9, 11
Miller v. Schoene,
276 U.S. 272 (1928). . . . . . . . . . . . . . . . . . . . . . . . 6
Mitchell v. W.T. Grant Co.,
416 U.S. 600 (1974). . . . . . . . . . . . . . . . . . . . . . . . 6
N. Ga. Finishing, Inc. v. Di-Chem, Inc.,
419 U.S. 601 (1975). . . . . . . . . . . . . . . . . . . . . . . . 5
N.C. State Bd. of Dental Exam’rs v. FTC,
574 U.S. 494 (2015). . . . . . . . . . . . . . . . . . . . . . . 18
NLRB v. Jones & Laughlin Steel Corp.,
301 U.S. 1 (1937). . . . . . . . . . . . . . . . . . . . . . . . . 14
New Motor Vehicle Bd. of Calif. v. Orrin W.
Fox Co., 439 U.S. 96 (1978) . . . . . . . . . . . . . . . . . 6
Protz v. Workers’ Comp. App. Bd.,
161 A.3d 827 (Pa. 2017) . . . . . . . . . . . . . . . . . . . 14
Schweiker v. McClure,
456 U.S. 188 (1982). . . . . . . . . . . . . . . . . . . . . . . . 9
Schweizer v. Bd. of Adjustment of the City
of Newark, 980 A.2d 379 (Del. 2009) . . . . . . 17, 18
Sniadach v. Family Finance Corp. of Bay View,
395 U.S. 337 (1969). . . . . . . . . . . . . . . . . . . . . . . . 5
Tumey v. Ohio,
273 U.S. 510 (1927). . . . . . . . . . . . . . . . 6, 8, 15, 16
United States v. James Daniel Good Real
Property, 510 U.S. 43 (1993). . . . . . . . . . . . . 11, 15

v
Ward v. Village of Monroeville,
409 U.S. 57 (1972). . . . . . . . . . . . . . . . . . . 8, 15, 16
Washington ex rel. Seattle Title Trust Co. v.
Roberge, 278 U.S. 116 (1928) . . . . . . . . . . . . . 4, 14
Williams v. Pennsylvania,
136 S. Ct. 1899 (2016). . . . . . . . . . . . . . . . . . . . . 10
Withrow v. Larkin,
421 U.S. 35 (1975). . . . . . . . . . . . . . . . . . . . . . 9, 10
Young v. United States ex rel. Vuitton et Fils S.A.,
481 U.S. 787 (1987). . . . . . . . . . . . . . . . . . 9, 10, 11
STATUTES
N.C. Gen. Stat. § 160D-909 . . . . . . . . . . . . . . . . . . . 22
OTHER AUTHORITIES
12 Fraternities and Sororities Reject Agreement with
University (Updated), THIS IS RENO, Jan. 23,
2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Greta Anderson, The Last Straw, INSIDE HIGHER
ED, May 17, 2021 . . . . . . . . . . . . . . . . . . . . . . . . 22
Goldie Blumenstyk, Expansion in Mind, Colleges
Snap up Real Estate in Buyers’ Markets, CHRON.
HIGHER EDUC., Jan. 17, 2010 . . . . . . . . . . . . . . . . 8
Henry Grabar, City Planning 101: Why Universities
Became Big-Time Real Estate Developers, SLATE,
May 11, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8

vi
Kim Kozlowski, UM Delays Greek Rush, but Some
in No Mood to Wait, DETROIT NEWS, Oct. 7, 2019
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Lauren Muthler, Want to Buy a Frat House? Here’s
What Could Happen to a Former Fraternity for
Sale in State College, CENTRE DAILY TIMES, Mar.
4, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Nat’l Panhellenic Conf., National Panhellenic
Conference Statement Regarding Renewed
Agreement with University of Nevada, Reno, May
26, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Ohio University Reverses Unconstitutional Directive
Muzzling Fraternity Members, FOUND. FOR
INDIV. RIGHTS IN EDUC., Nov. 26, 2019 . . . . . . . 19
Nate Raymond, Harvard Drops Single-Sex Club
Ban After Lawsuit by Fraternities, Sororities,
REUTERS, June 29, 2020 . . . . . . . . . . . . . . . . . . . 19
Jake Sheridan, Seven Fraternities Disaffiliate from
Duke IFC, THE CHRONICLE (Duke Univ.), Feb.
16, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Alexander Volokh, The New Private-Regulation
Skepticism: Due Process, Non-Delegation, and
Antitrust Challenges, 37 HARV. J.L. & PUB. POL’Y
931 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 7

1
INTEREST OF THE AMICI CURIAE1
The National Panhellenic Conference (NPC) and North
American Interfraternity Conference (NIC) are
separate associations that represent, respectively,
women’s-only and men’s-only social sororities and
fraternities for undergraduate students throughout the
United States and Canada.
NPC, one of the largest organizations advocating for
women, is the umbrella group for 26 national and
international social sororities. Through its advocacy,
NPC highlights the importance of women’s-only spaces
and showcases the transformational power of the
sorority experience.
NIC is a trade association that represents 58 national
and international men’s fraternities, including a
diverse range of culturally and religiously based
organizations, on campuses in the United States and
Canada. NIC is committed to supporting organizations
for young men to seek and form positive, enriching
fraternal bonds. The health and safety of students
guides NIC’s advocacy, standards and education.
NPC, NIC, and their member organizations partner
cooperatively with more than 600 colleges and
universities across North America. Chapters of NPC
1

All parties consented to the filing of this brief after receiving
timely notice pursuant to Supreme Court Rule 37.2. Pursuant to
Supreme Court Rule 37.6, amici curiae state that no counsel for
any party authored this brief in whole or in part and that no entity
or person, aside from amici curiae, its members, and its counsel,
made any monetary contribution toward the preparation or
submission of this brief.

2
and NIC member organizations most often operate
with recognition from the college or university where
their members are enrolled; however, that is not
universally true, as some chapters operate independent
of university recognition.
NIC and NPC have a direct interest in this case
because zoning ordinances like the one in Bloomington,
and in certain other college towns across the country,
put their member organizations’ contract and property
rights at the mercy of other self-interested entities,
severely undermine fraternities’ and sororities’
independence with respect to universities, and impair
fraternity and sorority members’ associational rights.
SUMMARY OF ARGUMENT
Over the last century, this Court has developed a
sensible and coherent body of caselaw that stands for
the principle that coercive power over the rights of
others may only be wielded by disinterested parties.
This is true whether the parties are public or private:
a judge may not be compensated out of the fines he
collects from defendants he convicts, and private
residents may not exercise zoning power over their
neighbors. This Court has reaffirmed this principle in
a wide variety of contexts, from industrial wage and
price regulation to debtor-creditor or landlord-tenant
self-help remedies, from traditional judges to
administrative adjudicators to prosecutors. The bias
caselaw does not condemn bad acts as such: it
condemns structural arrangements that make the
probability of bias intolerably high. And it demands not
only justice but also the appearance of justice.

3
Zoning ordinances like the one here do violence to the
principle behind this century of caselaw. Indiana
University is financially self-interested twice over: it
benefits from having more demand for its student
housing, and it also benefits from having low-cost land
nearby that it can acquire on favorable terms. In other
words, the University competes with other landlords
for student tenants—and with other landowners for
real estate. Derecognize a fraternity,2 and you kill two
birds with one stone: the evicted fraternity members
have to go somewhere, and many of them will go to
your university housing; and the landowner, who may
have trouble finding another tenant within the limited
uses allowed by the zoning ordinance, will be more
likely to sell you his land for a song. The conflicts of
interest are plain.
The effects of this arrangement on the associational
rights of fraternities, sororities, and their current and
prospective members are stark. In multiple cases
nationwide, fraternities and sororities have chosen to
exist independently, without formal university
recognition. Some have never sought recognition
because their university has not offered it; others have
chosen to give up the various benefits of recognition as
the price of avoiding heavy-handed university
regulation. Fraternities’ and sororities’ ability to be
independent is a salutary check on the power of
universities to micromanage every aspect of their
students’ lives, both on and off campus. But fraternities
and sororities would find this difficult or impossible if
2

This brief will often use the term “fraternity” to refer generically
to social fraternities and sororities.

4
being independent meant losing their house. These
sorts of zoning ordinances shift the balance of power in
these disputes, giving universities unwarranted power
beyond their walls.
This is an ideal case for this Court to reaffirm
traditional Due Process values, to resolve a split on an
issue that recurs with some regularity, and to protect
not only the property and contract rights of landowners
but also the associational rights of fraternities and
sororities. By protecting the rights of this landowner,
this Court will protect the rights of amici.
ARGUMENT
I.

Basic Due Process principles prevent selfinterested parties, whether public or
private, from having coercive power over
the rights of others.

The basic Due Process principles that are relevant in
this case have been formulated in a line of cases that
began over a century ago; and though the problem of
bias shows up in a variety of factual settings, the
caselaw is consistent. See Alexander Volokh, The New
Private-Regulation Skepticism: Due Process, NonDelegation, and Antitrust Challenges, 37 HARV. J.L. &
PUB. POL’Y 931, 940–55 (2014).
In the zoning context, this Court established that a
legislature may not delegate a power to some property
owners to “virtually control and dispose of the property
rights of others” when they can “do so solely for their
own interest.” Eubank v. City of Richmond, 226 U.S.
137, 143–44 (1912); see also Washington ex rel. Seattle
Title Trust Co. v. Roberge, 278 U.S. 116, 121–22 (1928).

5
In the context of industrial regulation, a “majority” of
industry participants may not “regulate the affairs of
an unwilling minority”: “This is legislative delegation
in its most obnoxious form, for it is not even delegation
to an official or an official body, presumptively
disinterested, but to private persons whose interests
may be and often are adverse to the interests of others
in the same business.” Carter v. Carter Coal Co., 298
U.S. 238, 311 (1936). Such a delegation to selfinterested parties clearly violates Due Process because,
“in the very nature of things, one person may not be
entrusted with the power to regulate the business of
another, and especially of a competitor.” Id. (emphasis
added).
In the context of creditor remedies like wage
garnishment or prejudgment replevin procedures, a
creditor—obviously a self-interested party—may not
simply freeze a debtor’s wages or seize his goods
without making some showing before a judge. See
Sniadach v. Family Finance Corp. of Bay View, 395
U.S. 337 (1969); Fuentes v. Shevin, 407 U.S. 67, 80–81,
83, 92–93 (1972); N. Ga. Finishing, Inc. v. Di-Chem,
Inc., 419 U.S. 601, 606–07 (1975). This Court very
recently reaffirmed the rule in the context of landlordtenant law: the ability of a tenant to unilaterally stave
off eviction by self-certifying financial hardship, where
the landlord has no access to a hearing to contest that
certification, violates the command that “‘no man can
be a judge in his own case.’” Chrysafis v. Marks, No.
21A8 (U.S. Aug. 12, 2021) (quoting In re Murchison,
349 U.S. 133, 136 (1955)).

6
This isn’t just a rule against private regulators: the
rule is substantially the same when public actors are
involved. A judge can’t rule on a case if he has a
pecuniary interest in the result. Tumey v. Ohio, 273
U.S. 510 (1927); Aetna Life Ins. Co. v. Lavoie, 475 U.S.
813, 825 (1986); see also Connally v. Georgia, 429 U.S.
245, 250 (1977) (finding a Due Process violation where
a magistrate was paid $5 for each search warrant
issued). This principle applies equally in quasi-judicial
proceedings like administrative adjudications, as when
a State Board of Optometry controlled by independent
optometrists tried to revoke the licenses of corporateemployed optometrists in Gibson v. Berryhill, 411 U.S.
564, 579 (1973); see also Marshall v. Jerrico, 446 U.S.
238, 248 (1980). (In this case, the Indiana Supreme
Court described the University’s act of derecognizing
the fraternity as a “quasi-judicial act.” See Bloomington
Bd. of Zoning App. v. UJ-Eighty Corp., 163 N.E.3d 264,
269 (Ind. 2021).)
These are the basic rules, though other cases have
introduced various common-sense exceptions. Most
importantly, there is often no Due Process violation
when the self-interested party’s power is limited by the
involvement of a neutral decisionmaker by the time of
the first adjudication. For this reason, Due Process is
not implicated when private parties (even selfinterested ones) merely have the power to set
(disinterested) legal machinery in motion, see, e.g.,
Miller v. Schoene, 276 U.S. 272, 281 (1928); Mitchell v.
W.T. Grant Co., 416 U.S. 600, 616–17 (1974); New
Motor Vehicle Bd. of Calif. v. Orrin W. Fox Co., 439
U.S. 96, 109 (1978); Haw. Housing Auth. v. Midkiff,
467 U.S. 229, 243 n.6 (1984); Concrete Pipe & Prods. of

7
Cal., Inc. v. Construction Laborers Pension Trust for S.
Cal., 508 U.S. 602, 618–20 (1993). See generally
Volokh, supra, at 944–50 (discussing the “mandatorydiscretionary distinction”).
By these standards, the University is self-interested
twice over. The University benefits from evicting
students from a fraternity house, because these
students have to live somewhere, and many of them
might move into university housing, whether a dorm or
apartment, where they will pay rent to the university.
See Cert. Pet. at 6–10, 13, 27. And once the fraternity
is evicted, what does the landowner do? His options
under the Bloomington zoning ordinance are limited.
There may be no other fraternity interested in renting
or buying a house; other options under the code, like
“preschool” or “museum” or “golf course” or
“cemetery/mausoleum,” may not be appropriate;
perhaps there is no need for an additional “post office”
in the area. The value of the landowner’s property may
have dropped precipitously. But one of the permitted
uses is highly relevant: “university or college.” The
party that is most interested in the landowner’s
property could be the giant right across the street: the
University itself, which may be interested in expanding
and acquiring new real estate, especially at a discount.
See, e.g., Cert. Pet. at 13, 27–28; Lauren Muthler, Want
to Buy a Frat House? Here’s What Could Happen to a
Former Fraternity for Sale in State College, CENTRE
DAILY TIMES, Mar. 4, 2019 (“Now that more than a
dozen Penn State fraternities have been suspended as
the result of stricter Greek-life restrictions . . . former
fraternity houses [are] becoming more common on the
real-estate market.”); Henry Grabar, City Planning

8
101: Why Universities Became Big-Time Real Estate
Developers, SLATE, May 11, 2018; Goldie Blumenstyk,
Expansion in Mind, Colleges Snap up Real Estate in
Buyers’ Markets, CHRON. HIGHER EDUC., Jan. 17, 2010.
The University thus potentially benefits in two
separate ways from derecognizing a fraternity. The
Due Process violation is doubly clear.
II.

This Court has found Due Process
violations even when the conflict of
interest has been fairly indirect.

Sometimes the pecuniary interest is direct; sometimes
it is indirect; the caselaw has condemned selfinterested regulation in both cases. Tumey involved a
mayor of a village who also acted as a judge in
Prohibition-related cases. This mayor-judge’s
compensation arrangement was highly suspect: he was
paid, in part, out of the fines assessed on the
defendants whom he convicted, so that he had a direct
financial interest in convicting more people. That was
enough for the Court to find a violation of Due Process,
see 273 U.S. at 532, but the Court also invalidated the
arrangement for an alternative reason: the mayor had
a strong motive for assessing more fines because, as
chief executive of the village, he was responsible for
village finances, see id. at 532–34.
And this alternative holding was strongly reaffirmed
nearly half a century later, in Ward v. Village of
Monroeville, 409 U.S. 57, 60 (1972), and Gibson, 411
U.S. at 579. The test is not whether the decisionmaker
is actually biased, but whether “the probability of
actual bias on the part of the judge or decisionmaker is

9
too high to be constitutionally tolerable,” Withrow v.
Larkin, 421 U.S. 35, 47 (1975) (emphasis added); see
also Young v. United States ex rel. Vuitton et Fils S.A.,
481 U.S. 787, 807 n.18 (1987). Moreover, it is important
that justice “satisfy the appearance of justice,”
Marshall, 446 U.S. at 243; Aetna Life Ins. Co., 475 U.S.
at 825. The Indiana Supreme Court was thus quite
wrong in this case to write: “[D]espite hinting
otherwise, UJ-Eighty has not shown IU acted
improperly or disregarded either [the federal or the
Indiana] constitution when it revoked [the fraternity’s]
sanction.” Bloomington Bd. of Zoning App., 163 N.E.3d
at 269 (footnote omitted). Acting badly is bad, but the
bias caselaw does not demand actual bad acts; it
condemns biased structures that make bad acts more
probable, and the appearance of such bias.
Thus, in other pecuniary bias cases, this Court has not
inquired deeply into precisely how the pecuniary bias
might play out. Obviously, when the alleged conflict of
interest turns out to be illusory—in the sense that the
entity cannot be shown to benefit at all from the
challenged action—there is no violation. See Dugan v.
Ohio, 277 U.S. 61, 64–65 (1928); Schweiker v. McClure,
456 U.S. 188, 196–97 (1982); see also Bevan v. Krieger,
289 U.S. 459, 465–66 (1933); Marshall, 446 U.S. at
250–52 (in a prosecutorial context, biasing influence
found to be too remote and insubstantial). But
whenever an entity—particularly in the judicial or
quasi-judicial context—has stood to benefit financially
from its decisions, the Court has condemned the
arrangement without requiring a showing that
particular employees were under pressure from
elsewhere in the organization to achieve a particular

10
result. In most cases, it has been enough to observe
that a party’s self-interest was implicated, in the sense
that the party could be enriched by its decisions.
In fact, in conducting the necessary “realistic appraisal
of psychological tendencies and human weakness,”
Withrow, 421 U.S. at 47, this Court has not hesitated
to rely on behavorial factors to find that a probability
of bias was excessive. (This Court has unapologetically
called this appraisal a process of “informed”
“speculation.” Young, 481 U.S. at 807.) In Caperton v.
A.T. Massey Coal Co., 556 U.S. 868 (2009), this Court
held that it violated Due Process for an elected State
Supreme Court Justice to participate in a case where
one of the parties had just spent millions of dollars to
get that Justice elected. The Justice’s compensation
didn’t depend on his ruling and the donor had no power
to get him removed from the Court, so what was the
source of bias? Apparently no more than the “debt of
gratitude” that the Justice would feel toward his
benefactor. Id. at 882.
Likewise, in Williams v. Pennsylvania, 136 S. Ct. 1899
(2016), the problem was that a State Supreme Court
Justice ruling on a case had been involved in the very
same case as a prosecutor many years earlier. One
could reasonably fear that the Justice would be “‘so
psychologically wedded’ to his or her previous position
as a prosecutor that [he] ‘would consciously or
unconsciously avoid the appearance of having erred or
changed position.’” Id. at 1906 (quoting Withrow, 421
U.S. at 57). And in Murchison—where a judge acted as
a “one-man grand jury” under Michigan law, charged
a witness with contempt, and then tried that contempt

11
proceeding—one of the concerns was that the judge
“cannot be, in the very nature of things, wholly
disinterested in the conviction or acquittal of those
accused” and might have some of “the zeal of a
prosecutor.” 349 U.S. at 137 (emphasis added).
Similarly, while prosecutorial bias is subject to lesser
constraints than adjudicatory bias, see Marshall, 446
U.S. at 247–48, there may be Due Process violations
when prosecutors are improperly motivated—even
though a prosecutor does not succeed until a
(presumably neutral) decisionmaker finds in his favor.
In Young, this Court observed that if a lawyer
representing a client acted as a private prosecutor, he
would act in a biased way (biased toward his client,
that is) because of “the ethics of the legal profession”;
moreover, his biased behavior could not be adequately
policed by later court review because the private
prosecutor would “exercise[] considerable discretion” in
various matters, and his decisions would be “made
outside the supervision of the court.” 481 U.S. at 807.
And in United States v. James Daniel Good Real
Property, 510 U.S. 43 (1993), the Supreme Court
insisted on a predeprivation hearing before a seizure of
real property, especially in light of the government’s
“direct pecuniary interest in the outcome of the
proceeding.” Id. at 56. That direct pecuniary interest
was the government’s “financial stake in drug
forfeiture.” Was any government official directly
compensated from the proceeds of drug forfeiture?
Presumably not—but this Court pointed to a memo
from the Attorney General urging U.S. Attorneys to
meet the DOJ’s annual budget targets. Id. at 56 n.2.

12
This Court was rightly concerned with structural bias,
not just individual compensation arrangements—even
though the seizure had been approved by a (neutral)
Federal Magistrate Judge. Id. at 73 (O’Connor, J.,
concurring in part and dissenting in part).
The phrase emphasized above from Murchison—“in the
very nature of things”—echoes the same phrase from
Carter Coal. Compare Murchison, 349 U.S. at 137, with
Carter Coal, 298 U.S. at 311. This Court has operated
from the realistic general premises that people can be
tempted by financial gain and that the mechanisms by
which such temptation can translate into actual bias
are subtle, complex, and hard to ferret out.
Therefore—and especially since we care not only about
actual justice but also about the appearance of
justice—as a structural matter, we should avoid
arrangements that build in such temptation in the first
place.
Here, it is quite natural to suspect that when a
university can reap financial benefits from evicting a
fraternity, both from receiving extra rental income
from the evicted fraternity members and from
potentially being able to buy the vacant property at a
lower price than before, many subtle influences—some
of them hard to detect—will be at work. The university
president doesn’t need to pick up the phone and tell the
Division of Student Affairs to suspend the fraternity;
he can instead be motivated to take a harder line
against fraternities generally—and appoint stricter
disciplinarians to the bodies in charge of fraternity
discipline—than he otherwise would if the pecuniary

13
benefits were absent. This is true whether the
university is public or private.
III.

The Indiana Supreme Court’s supposed
distinctions are not relevant to this case.

The Indiana Supreme Court distinguished this case
from other Due Process cases in a number of ways, all
of which are unconvincing.
First, the Indiana Supreme Court wrote that
“Bloomington never empowered IU to define
fraternities and sororities, a power IU already clearly
possesses. Bloomington, rather—through the
legislative process—defined fraternities and sororities
based on their relationship with IU. It did not delegate
any authority, legislative or otherwise.” Bloomington
Bd. of Zoning App., 163 N.E.3d at 267.
This may be partly true, but it is also irrelevant. This
is not a lawsuit against Indiana University. The
University is not the defendant here; indeed, at least in
federal court, this lawsuit would have been dismissed
for lack of standing if it had been brought against the
University. This lawsuit was brought against the
Bloomington Board of Zoning Appeals, because that is
the body that is responsible for the eviction; the
offending document is the zoning ordinance, which
conditions the landlord’s contract and property rights
on the decision of a self-interested outsider. Of course
the ordinance merely “define[s] fraternities and
sororities based on their relationship with IU,” but that
doesn’t mean there has been no delegation: in the
context of state and federal non-delegation doctrines,
statutes incorporating third-party standards and

14
definitions are straightforwardly analyzed as
presenting delegation issues. See, e.g., Protz v. Workers’
Comp. App. Bd., 161 A.3d 827, 833–38 (Pa. 2017)
(applying Pennsylvania’s non-delegation doctrine). In
any event, here, it is the definition that is
constitutionally problematic, not whether that
definition can technically be labeled a “delegation.”
Not all such definitions are necessarily problematic.
The zoning ordinance also refers to whether all the
students in the building are “enrolled” at the
university, so an expelled student must also be
evicted—but presumably the university does not
benefit financially from expelling a student. Whether
IU may derecognize a fraternity is one thing; this case
is about whether, given IU’s financial interest, the city
may give that derecognition coercive force in the zoning
context.
Similarly, the Indiana Supreme Court distinguished
cases like Roberge and Counceller v. City of Columbus
Plan Commission, 42 N.E.3d 146 (Ind. Ct. App. 2015),
by noting that in those cases, the self-interested
neighbors’ power was direct, in that “the landowners
were required to obtain their neighbors’ consent to use
their land. Here, UJ-Eighty never had to seek IU’s
consent to use its land. IU had no direct power to
prohibit UJ-Eighty from lawfully using its land.”
Bloomington Bd. of Zoning App., 163 N.E.3d at 269.
But Due Process does not depend on such a
direct/indirect distinction, which has been rejected as
unworkable in many contexts. See, e.g., NLRB v. Jones
& Laughlin Steel Corp., 301 U.S. 1 (1937) (Commerce
Clause). Moreover, IU clearly thinks of itself as a

15
regulator of the landowner, beyond the more limited
power it holds over the property as a result of its
easements: its own appellate amicus brief supporting
the zoning restriction stated that “it is appropriate for
IU to exercise some degree of control over the property
to promote the health and safety of the campus
community.” Br. of Amicus Curiae Trustees of Indiana
University in Supp. of Appellant, 141 N.E.3d 869 (Ind.
Ct. App. 2020) (No. 19A-PL-457), 2019 WL 8807895, at
*15–17 (emphasis added); see also Br. of Amicus Curiae
Trustees of Indiana University in Supp. of Appellant’s
Pet. to Transfer, 163 N.E.3d 264 (Ind. 2021) (No. 21SPL-77), 2020 WL 2543557, at *5–6, *10–14 (si milar).
The Indiana Supreme Court thought it significant that
Indiana University “is a state actor” that “must abide
by the state and federal constitutions”; “IU was
constrained when it engaged in the relevant ‘quasijudicial act’ with a collateral effect on land use.”
Bloomington Bd. of Zoning App., 163 N.E.3d at 269.
This is again true, and again irrelevant. As the above
survey of the caselaw shows, even state actors are
bound by the Due Process Clause, especially in the
judicial and (as here) “quasi-judicial” contexts. The
judges in Tumey, Ward, and Aetna Life; the quasijudicial optometry board officials in Gibson; and the
DOJ employees in James Daniel Good were all
vulnerable to bias challenges, even though they were
all state actors, all subject to their respective
constitutions. There is thus no relevant difference, as
far as the landlord’s bias claim is concerned, between
this case and an identical case that could have occurred
at a private university.

16
Nor is it relevant whether the landlord could have
intervened in the fraternity’s case, as the Indiana
Supreme Court finally suggested. Bloomington Bd. of
Zoning App., 163 N.E.3d at 270. As the Bloomington
Assistant City Attorney stated at oral argument before
the Indiana Supreme Court, the University had no
obligations to the property owner, see Cert. Pet. at 14,
so it is unclear what would have been gained by such
intervention.
But more fundamentally, the fraternity itself could
have been the landowner; indeed, many fraternities or
their national corporations own their own houses. In
such a case, the landowner is necessarily present at the
adjudication whenever the fraternity is present. And
that clearly cannot cure the bias, or else Tumey and
Ward would have come out the other way. Due Process
requires that the first adjudication (i.e., the quasiadjudication within the University itself) be before a
disinterested party, regardless what other procedures
are offered or who else has a chance to intervene. The
bias itself is an independent problem. After all, as this
Court wrote in Ward, a biased procedure cannot “be
deemed constitutionally acceptable simply because the
State eventually offers a defendant an impartial
adjudication. Petitioner is entitled to a neutral and
detached judge in the first instance.” 409 U.S. at 61–62.
IV.

The split in this case is real, and the
situation here recurs with some regularity.

Many university communities have zoning ordinances
that condition a fraternity’s permission to occupy a
house on that fraternity’s recognition by the university.
In addition to the area around Indiana University, such

17
codes also exist around (among others) Cal Poly, San
Luis Obispo; Florida State University; Georgia Tech;
Iowa State University; Kansas State University; Miami
University; Penn State; Purdue University; Rutgers
University; UNC Chapel Hill; UC Berkeley; University
of Cincinnati; University of Illinois UrbanaChampaign; University of Iowa; University of Kansas;
University of Minnesota, Twin Cities; University of
Oregon; University of Utah; University of Virginia;
University of Washington; and University of
Wisconsin-Madison.
The last dozen years have seen at least three
significant fraternity zoning cases. In addition to this
case, the Pennsylvania Commonwealth Court decided
a case out of Penn State in 2019, and the Supreme
Court of Delaware decided a case out of the University
of Delaware in 2009. See 425 Pty. Ass’n of Alpha Chi
Rho, Inc. v. State Coll. Borough Zoning Hearing Bd.,
223 A.3d 300 (Pa. Commw. Ct. 2019); Schweizer v. Bd.
of Adjustment of the City of Newark, 980 A.2d 379 (Del.
2009). This only scratches the surface: many cases
never reach court because fraternities may not have
the means to mount a constitutional challenge.
The D.C. Circuit decided a case involving Amtrak in
2016, concluding that Amtrak, as a self-interested
(though governmental) corporation, could not,
consistent with Due Process, participate in the
regulation of its freight train competitors. See Ass’n of
Am. R.R.s v. DOT, 821 F.3d 19 (D.C. Cir. 2016). This
Court has encountered similar ideas in the context of
COVID-related eviction moratoria, concluding that a
New York statute could not allow tenants to self-certify

18
financial hardship and deny their landlords a hearing
to contest that certification. Chrysafis v. Marks, No.
21A8 (U.S. Aug. 12, 2021). Cf. also N.C. State Bd. of
Dental Exam’rs v. FTC, 574 U.S. 494 (2015)
(illustrating the problem of self-interested regulation in
antitrust law, in the case of occupational licensing
boards dominated by active market participants).
In short, with cases like Ass’n of American Railroads
(and Carter Coal and the bulk of Due Process doctrine)
on one side, and this case and Schweizer on the other,
petitioner UJ-Eighty is correct that there is a split
worth resolving. These sorts of cases recur with some
regularity, both in the narrow fraternity context and in
the broader context of self-interested regulation. This
Court’s intervention will be welcome, not only to correct
the result in this case and to resolve the differences of
opinion among federal and state courts, but also to
illustrate how the familiar doctrine plays out in this
new area.
V.

The Indiana Supreme Court’s decision
severely undermines the associational
freedoms of fraternities and sororities.

Universities have a history of interfering in the
independence of student organizations, whether those
organizations are recognized or unrecognized.
Sometimes the struggle between universities and
student organizations turns into a lawsuit. If the
university is public, it might be a constitutional
lawsuit, often on First Amendment grounds: in
Christian Legal Society v. Martinez, 561 U.S. 661
(2010), a student organization challenged a policy
requiring recognized organizations to accept all

19
students regardless of belief, and in Chi Iota Colony of
Alpha Epsilon Pi Fraternity v. City University of New
York, 502 F.3d 136 (2d Cir. 2007), a fraternity
challenged a policy prohibiting recognized
organizations from engaging in gender discrimination.
If the university is private, it might be a statutory
lawsuit: in Kappa Alpha Theta Fraternity, Inc. v.
Harvard University, 397 F. Supp. 3d 97 (D. Mass.
2019), and Alpha Phi International Fraternity, Inc. v.
President & Fellows of Harvard College, 36 Mass. L.
Rptr. 201 (Super. Ct. 2020), fraternities challenged
Harvard’s policy denying certain benefits to members
of unrecognized, single-sex organizations under Title IX
of the Education Amendments of 1972 and the
Massachusetts Civil Rights Act. Sometimes the
struggle never reaches the courtroom, and either the
university wins or it backs down under criticism. See,
e.g., Ohio University Reverses Unconstitutional
Directive Muzzling Fraternity Members, FOUND. FOR
INDIV. RIGHTS IN EDUC., Nov. 26, 2019.
Amici do not claim that all these attempts at
interference are illegal or unconstitutional (especially
at private universities, which obviously have greater
leeway to grant or withhold benefits). The challengers
to the policies in Christian Legal Society and Chi Iota
Colony did not prevail; on the other hand, Harvard
abandoned its anti-single-sex-organization policy
(mooting the lawsuits against it) after this Court’s
decision in Bostock v. Clayton County, 140 S. Ct. 1731
(2020). See Nate Raymond, Harvard Drops Single-Sex
Club Ban After Lawsuit by Fraternities, Sororities,
REUTERS, June 29, 2020. This is a tug-of-war that will
be won sometimes by universities and sometimes by

20
student organizations in light of prevailing law and
popular pressure; universities may threaten to deny
benefits, and organizations may choose to forgo official
recognition. But when restrictive zoning codes provide
that a fraternity must lose its (privately rented, offcampus) house—that its members must be evicted and
find alternative housing—when it loses recognition,
this puts unacceptable pressure on fraternities to yield
to university demands, even when those demands are
clearly unreasonable.
A couple of recent examples will illustrate the point. In
2019, several fraternities expressed concern over the
demands of the University of Nevada, Reno, that these
organizations provide the University with reports on
their own internal conduct investigations—and even
refrain from socializing with any unrecognized student
organizations. These fraternities chose to protect the
privacy of their own internal governance mechanisms,
as well as their members’ associational freedoms, by
forgoing university recognition and existing instead as
independent groups. (The situation was resolved in
2020.) See 12 Fraternities and Sororities Reject
Agreement with University (Updated), THIS IS RENO,
Jan. 23, 2019; Nat’l Panhellenic Conf., National
Panhellenic Conference Statement Regarding Renewed
Agreement with University of Nevada, Reno, May 26,
2020.
The same year, the University of Michigan instituted
a policy that prevented freshmen from joining
fraternities until their second semester. Several
fraternities, believing that students should be able to
join any student organization whenever they like, left

21
UM’s Interfraternity Council and operated
independently, holding rush in the Fall. See Kim
Kozlowski, UM Delays Greek Rush, but Some in No
Mood to Wait, DETROIT NEWS, Oct. 7, 2019. The same
has happened this year at Duke University, which bars
fraternity recruitment of first-year students entirely.
See Jake Sheridan, Seven Fraternities Disaffiliate from
Duke IFC, THE CHRONICLE (Duke Univ.), Feb. 16, 2021.
In short, fraternities’ ability to go independent is a
salutary check on universities’ intrusiveness, providing
alternative ways for students to exercise their
associational freedoms. Cf. Christian Legal Society, 561
U.S. at 691 & n.21. But none of the preceding would
have been possible if Reno, Ann Arbor, or Durham had
had restrictive ordinances prohibiting unrecognized
fraternities from keeping their houses. The fraternities
would have had little bargaining power; left with the
unattractive options of having a house far from campus
or operating without a house at all, the fraternities
would probably have had little choice but to yield to the
universities’ demands. (The appearance of bias is also
significant here: even if the University had some
internal safeguards preventing its self-interest from
contaminating its fraternity decisions, outsiders would
still assume that their bargaining position was bad.)
And if the fraternities had ultimately chosen to forgo
official recognition, the universities would have had the
pleasant consolation prize of receiving extra rental
payments from evicted fraternity members, and
perhaps being able to buy some newly vacant buildings
near campus at a bargain price.

22
As an extreme case, suppose a university simply
terminated its whole fraternity and sorority program.
Fraternities and sororities could still exist, but they
would operate without university recognition and
without access to the traditional benefits that
universities offer fraternities. This is no hypothetical:
it happened at Bloomsburg University of Pennsylvania
earlier this year. See Greta Anderson, The Last Straw,
INSIDE HIGHER ED, May 17, 2021. (This makes
Bloomsburg similar to universities like Harvard, the
University of Chicago, or Georgetown, which already
follow a policy of complete separation between
fraternities and the university.) No university is
required to have a Greek Life program or otherwise
provide benefits to fraternities, so there is nothing
illegal about this as such. But if Bloomsburg had had
a restrictive ordinance, this move would have resulted
in massive simultaneous evictions—and massive
amounts of unoccupied real estate. See Cert. Pet. at 24.
At least one state legislature has recognized these
problems and passed legislation providing that “[a]
zoning regulation or unified development ordinance
may not differentiate in terms of the regulations
applicable to fraternities or sororities between those
fraternities or sororities that are approved or
recognized by a college or university and those that are
not.” N.C. GEN. STAT. § 160D-909. Because no such
legislation exists in Indiana, the University has an
unfair advantage over fraternities in any future
negotiations or proposed requirements.

23
CONCLUSION
Due Process prevents one’s rights from being at the
mercy of self-interested parties, whether public or
private. This is true whether the self-interested parties
can affect others’ rights directly or indirectly. This is
especially true in the context of adjudication or quasiadjudication, which is what happened here—but the
problem is quite general, and would be substantially
the same even if this had occurred at a private
university. The University in this case is biased twice
over, once in its competition with the landlord over
student tenants and once in its competition with the
landlord over real estate. This arrangement affects not
only landowners but also fraternities and sororities,
who are placed at a severe disadvantage in their
negotiations with universities. Protecting the contract
and property rights of the landowner here will also
protect the associational rights of amici.
Respectfully submitted,
ALEXANDER VOLOKH
Counsel of Record
EMORY LAW SCHOOL
1301 Clifton Rd. NE
Atlanta, GA 30322
404-712-5225
avolokh@emory.edu
August 26, 2021

